U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


     INTERNAL CONTROLS OVER
        CASHIER OPERATIONS,
 GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO. 00-I-166
               JANUARY 2000
                                                                        N-IN-VIS-0 11-99-M


             United States Department of the Interior
                            OFFICE OF    INSPECTOR GENERAL              .-             ..
                                    Washington, D.C. 20240




                                  AUDIT R E P O R T

Honorable Charles W. Turnbull                          .
Governor of the U.S. Virgin Islands
Office of the Governor, Government House
No. 21-22 Kongens Gade
St. Thomas, Virgin Islands 00802

Subject:   Audit Report on Internal Controls Over Cashier Operations, Government of
           the Virgin Islands (No. 00-.I-166)

Dear Governor Turnbull:

This report presents the results of our review of internal controls over cashier operations at
12 agencies of the Government of the Virgin Islands. The objective of our audit was to
determine whether Governmental cashiers/collectors complied with policies and procedures
established to provide an adequate level of internal controls over collections and deposits of
Governmental revenues.

BACKGROUND
Pursuant to the responsibility authorized by Title 3, Section 177, of the Virgin Islands Code,
the Department of Finance issued the Govermnent Accounting Manual, which includes
policies and procedures (Sections 3 10.1 to 3 10.10 of the Manual) to be used by
cashiers/collectors when they collect, deposit, and report revenues on behalf of the
Government of the Virgin Islands. Governmental departments and agencies responsible for
collecting public funds are required to implement the procedures contained in the Manual
to facilitate better controls over collections and deposits of Governmental revenues.

SCOPE OF AUDIT
The scope of the audit, which was performed during July and August 1999, included a
review of internal controls over collections totaling $88 million made during May and June
1999 by cashiers/collectors at the St. Thomas offices of the Bureau of Internal Revenue; the
Roy L. Schneider Hospital; the Virgin Islands Lottery; and the Departments of Finance,
Health, Labor, Police, Planning and Natural Resources, Licensing and Consumer Affairs,
Agriculture, Public Works, and Human Services (see the Appendix). Our audit also included
unannounced cash counts at the 12 selected departments and agencies.
Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

Our audit included an evaluation of the internal controls over the collection, deposit, and
reporting of Governmental revenues. Internal control weaknesses were identified in these
areas and are discussed in the Results of Audit section of this report. Our recommendations,
if implemented, should improve the internal controls in these areas.
                                                       .
PRIOR AUDIT COVERAGE

The Office of Inspector General has not issued any prior audit reports exclusively on cashier
operations of the Government of the Virgin Islands. However, during the past 5 years, the
Virgin Islands Bureau of Audit and Control has issued 10 audit reports on the collection
activities at specific departments and agencies of the Government. Those audits disclosed
internal control weaknesses similar to those discussed in the Results of Audit section of this
report.

                              RESULTS OF AUDIT
 Government of the Virgin Islands cashiers/collectors did not comply with the policies and
procedures established for collecting, depositing, and reporting Governmental revenues.
 Specifically, we found that (1) collections were not made exclusively by employees
designated to be collectors, (2) collections were not properly documented and recorded, (3)
collections were not adequately secured, (4) bank deposits were not made timely and were
not reconciled to daily collections, and (5) collection records and reports were not submitted
timely to the Department of Finance. Sections 3 10.1 to 3 10.10 of the Government
Accounting Manual contain the requirements for the processing of collection and deposit
documents. We found, however, that these requirements were not always complied with
because the departments and agencies reviewed did not establish adequate internal controls
or provide sufficient oversight of cashier operations, cashiers did not follow established
controls, and adequate numbers of assistant collectors were not always designated or
available. As a result, differences totaling $42,232 existed between amounts collected and
deposited during May and June 1999, collections were at risk of misappropriation and/or
theft, and source documents were not always available to the Department of Finance for the
timely preparation of daily and monthly revenue reports.

Designation of Collection Agents

Section 310.2 of the Government Accounting Manual requires that collections be made
exclusively by collectors and assistant collectors approved by the Commissioner of Finance
and specifies the process for obtaining such approval. However, employees who were not
designated as collectors or assistant collectors were accepting payments and issuing receipts
as follows:

                                              2
I!
              - The Department of Planning and Natural Resources had three collectors at the
     Permits Division and one collector at the Enforcement Division. However, two employees
     who had not been officially designated as collection agents by the Department of Finance
     were assisting the Enforcement Division’s collector by accepting collections and issuing
     receipts. We also found that the Enforcement Division’s collector went to St. John 2 days
     each week during June of each year to collect annual boat registration fees. During that time,
     the collector pre-signed batches of blank receipt forms and left them at the Enforcement
     Division office for issuance to individuals who came to make payments. If the pre-signed
     receipt forms, which consisted of a white original and yellow and pink file copies, were all
     used, the employees who assisted the collector at the Enforcement Division issued unsigned
     receipts to customers who made payments. SubsequEnt to the issuance of unsigned white
     copies of the receipts, the collector would sign the file copies of the receipts. We found that
     the pink file copies of 55 receipts issued on June 22 and 23, 1999, were signed by the
     collector after returning from St. John.

              - The Maternal Child Health Division of the Department of Health had a collector and
     an assistant collector. However, because the assistant collector was on leave status through
     December 1999, an employee of the Department’s Family Planning Division made
     collections when the collector was not available. This employee was not designated as an
     assistant collector.

             - The Community Health Clinic of the Department of Health had two collectors.
     However, an employee of the Clinic who was not a designated collector also had an assigned
     receipt book and had collected $1,954 during May and June 1999.

     We believe that Governmental departments and agencies should ensure that employees who
     are assigned to make collections and issue receipts on behalf of the Government are properly
     designated as collectors or assistant collectors by the Department of Finance in accordance
     with Section 3 10.2 of the Government Accounting Manual. Additionally, supervisors should
     ensure that collectors and assistant collectors are aware that pre-signing blank receipt forms
     or giving unsigned receipts to individuals who are making payments are inappropriate
     practices in that they weaken the controls over collections.

     Although the Department of Human Services routinely collected license fees for the day care,
     preschool, and Headstart programs, we noted that the Department did not have a designated
     collector or assistant collector. The Department accepted only money orders and certified
     checks from clients and submitted such collections to the Department of Finance, along with
     Statements of Remittance, for deposit and recording to the Government’s accounting system.
     This procedure was in accordance with Section 3 10.3 of the Government Accounting
     Manual, which requires agencies that do not have a collector or an assistant collector to
     prepare a Statement of Remittance and transmit it, along with the funds collected, to the
     Department of Finance. However, we believe that because the Department of Human
     Services routinely makes collections, it should have at least one designated collection agent.




                                                   3
Collection Procedures
                                                                                                       ..
To ensure the proper reporting of daily collections, the Government Accounting Manual
requires that collectors prepare receipts, a listing of checks received, a Daily Summary of
Collections and Deposits, and Certificates ofDeposit.’ The Department of Finance provided
receipt books to collectors and assistant collectors of central governmental agencies, while
autonomous agencies used their own official receipt forms. Additionally, real property tax
bills, income tax returns, and motor vehicle registration certificates served as receipts when
they were properly stamped by the appropriate collector or assistant collector. We reviewed
these documents for collections made during May and June 1999 at selected departments and
agencies and found that receipts were missing or were incomplete and/or were not properly
filled out, listings of checks were not prepared, collection information was not entered timely
into the computer to produce Daily Summaries, and/or bank deposits could not be verified.

        Cashier Receipts. Section 3 10.3 of the Government Accounting Manual requires
that cashier receipts be issued in strict numerical sequence and that no erasures or write-overs
be made on receipts. However, receipts were missing or were incomplete and/or were not
properly filled out as follows:

       - At the Department of Finance, documents to support real property tax collections
of $15,848 could not be located.

         - At the Records Division of the Virgin Islands Police Department, 47 receipts for
collections of $482 were not found.

         _ At the Department of Planning and Natural Resources, receipts were incomplete
and not properly filled out. For example, the amount as written in words and in numbers was
different on Receipt No. 1002795, issued on May 24, 1999; the date was not completed on
Receipt No. 1003 197, issued in June 1999; the dollar amounts were not completed on
Receipt Nos. 1004221 and 1004227, issued on June 22, 1999; there were write-overs on
Receipt No. 1004 160, issued on June 22, 1999; and the dollar amount was not written out
on Receipt No. 1004622, issued on June 30, 1999.

        - At the Department of Public Works, Receipt No. 0 18 1874, issued on May 16,1999,
was initially written for $3 and later changed to reflect that $3 1 was collected.

        Listings of Checks. Section 3 10.3 of the Government Accounting Manual requires
that a listing of checks accompany all deposits that include checks. However, this
requirement was not always complied with by the Motor Vehicle Bureau and the Records
Division of the Police Department, the Department of Agriculture, and the Department of
Public Works. The collections of these departments were processed on computerized cash
registers (called PC cash drawers), and officials of the departments said that payments by


‘A Certificate of Deposit is an official Government of the Virgin Islands form that is used in lieu of a bank
deposit slip.

                                                      4
check were identified on Workstation Summaries printed from the computerized cash
registers. However, the Workstation Summaries showed only the total dollar amount of
checks received and did not include information such as check number, date, payor, and
amount. We found, during our audit, that the collection process was being computerized at
most Governmental agencies. We believe, however, that unless the computerized system can
be reprogrammed to include detailed check information on the Workstation Summaries, the
listing of checks required by the Government Accounting Manual should be maintained
because such detailed information about individual checks w&d be needed to follow up on
checks returned by banks for insufficient funds that were received in payment of amounts
owed the Government.                                 .
        Daily Summaries of Collections and Deposits. Section 3 10.5 of the Government
Accounting Manual requires that each collector prepare a Daily Summary of Collections and
Deposits, preferably at the end of each workday but no later than the morning of the first
workday following the day of collection. The Daily Summaries provide information on the
sequence of cashier receipts used and the distribution of collections by revenue account code
and also serve as a means of reconciling the daily amounts collected and deposited.
However, we found that departments and agencies whose collection process had been
computerized relied on Daily Summaries of information entered into the system by the
agencies’ collectors and printed at the Department ofFinance. We found that some agencies
did not enter their collection and deposit information into the computerized system on a daily
basis and that other agencies either did not pick up the Daily Summaries from the
Department of Finance or did not ensure that the Department of Finance provided them with
copies of the Daily Summaries as follows:

        _ At the Department of Finance, 19 Daily Summaries for collections of $735,200
were not available for our review. An official of the Department’s Revenue Collection
Branch told us that there was a backlog of 1 to 2 weeks in entering property tax collection
information into the computer.

        - At the Department of Agriculture, collections of $474 for May 19,20, and 24,
1999, and for June 17 and l&1999, were not entered into the computer on the same day that
they were collected. Further, 10 Daily Summaries for collections of $1,900 were not
available for our review because they had not been forwarded to the Department of
Agriculture by the Department of Finance.

       - At the Department of Licensing and Consumer Affairs, officials told us that the
computerized Daily Summaries were picked up each day from the Department of Finance.
However, 13 Daily Summaries for collections of $123,400 could not be located; therefore,
they were not available for our review.

        - At the Department of Labor, six Daily Summaries for collections of $23,200 w-ere
not available for our review because they were not forwarded by the Department of Finance.

We also found that the Roy L. Schneider Hospital did not report collections of $984,000 on
the Daily Summary of Collections and Deposits for May 24, 1999. A Hospital offrciai told

                                              5
us that collections for that date were not reported to the Department of Finance because that
was the day on which the Hospital opened its first bank account under new legislation that
made it independent from the Government’s Executive Branch.

        Certificates of Deposit. Section 3 10.4 of the Government Accounting Manual
requires that collectors prepare a Certificate of Deposit (deposit slip) each time a bank
deposit is made. The amount of daily deposits should equal the amount of daily collections.
However, as shown in Table 1, we identified at least 90 instanc&, totaling $42,232, in which
there were differences between daily collections and deposits.

        Table 1. Summary of Differences Between fiaily Collections and Deposits
                               for May and June 1999

                      APencv                             Instances        Collections     Difference*      Error Rate

Bureau of Internal Revenue                                     3       $4 1,097,600.97      $1,375.96       0.003%
Department of Finance                                        12         39,853,774.16       16,961.01       0.043%
Roy L. Schneider Hospital                                      6         3,3 12,33 1.91      5,975.12       0.180%
Virgin Islands Lottery                                       15          1,427,176.25        8,266.26       0.579%
Department of Labor                                          12            855,607.24        1,900.87       0.222%
Virgin Islands Police Department                             22            504,213.08        2,221.70       0.441%
Department of Planning & Natural Resources                     5           39OJ58.68         1,167.OO       0.299%
Department of Licensing & Consumer Affairs                     6           343,685.09        2,380.84       0.677%
Department of Health                                           6            164,232.60       1,979.02       1.205%
Department of Agriculture                                      3              5,577.30            4.10      0.074%
Department of Public Works                                     0              2,191.OO            0.00      0.000%
Department of Human Services                                 4                1.025.00            0.00      0.000%

   Totals                                                    a         $87.958.273.28 $42.23 1.88           0.048%

*&nounts shown are the total net value of the differences. That is, some differences represented shomges of deposits to
collections, and other differences represented overages of deposits to collections.


The circumstances of some of the differences noted in Table 1 were as follows:

        - At the Virgin Islands Lottery, regular bank deposit slips were used instead of the
Government’s Certificate of Deposit form. However, deposit slips were not available for us
to verify a deposit of $6,040 for ticket sales on May 27, 1999, and deposits of other
collections totaling $1,934 in May and June 1999..

         - At the Records Division of the Police Department, we could not verify two deposits
totaling $270 in June 1999 because the validated Certificates of Deposit had not been picked
up from the bank.

       - At the Motor Vehicle Bureau of the Police Department, discrepancies totaling
$1,470 existed because collections were not entered into the computer on the day collected
and because the Bureau had a 2- to 3-week backlog of collections to be entered.



                                                            6
       - At the Department of Licensing and Consumer Affairs, discrepancies totaling
$2,381 existed because the amounts reported on the Workstation Summary for particular
days were not deposited until the next day.

Although the error rates shown in Table 1 were very small, especially for the Bureau of
Internal Revenue and the Department of Finance, we believe that the existence of differences
totaling $42,232 demonstrates that internal controls related to the reconciliation of
collections and deposits were not followed, which provided the potential for funds to be
misappropriated. We believe that Governmental departments and agencies should ensure
that cashier operations are adequately supervised, monies collected are properly documented
and recorded using the appropriate manual or computeiized procedures, and daily collections
and deposits are reconciled.

Physical Security

 Section 310.3 of the Government Accounting Manual requires that every collector be
provided with a vault or a safe to protect the funds in his or her custody. However, at seven
locations,’ we found that vaults or safes were not available to secure funds which were kept
on the premises overnight. Also, we found that collections were not adequately safeguarded
during the workday. For example, at one location, the funds collected during the day were
left in an envelope on top of a desk, and at another location, the funds collected during the
day were kept in an unlocked desk drawer. Further, collection areas were not adequately
secured to provide for the collectors’ personal safety. For example, the collectors at five
locations did not have secured booths or collection areas with restricted access. At one of
these locations, a secure area that had been used as a cashier cage in prior years was used for
storage.

We believe that Governmental departments and agencies should ensure that funds in their
possession during the workday or left on premises overnight are properly safeguarded and
that collection personnel are provided with secure work areas which restrict access by
unauthorized personnel.

Bank Deposits

Section 3 10.4 of the Government Accounting Manual requires that collectors deposit daily,
through the use of night depositories, all collections made by them during the day. However,
this requirement was not always complied with as follows:

       - The Department of Agriculture did not deposit collections made on June 17 and 18,
1999, until July 6, 1999.




‘A list of locations where physical security was inadequate was provided to the Governor of the Virgin Islands
in a separate letter.

                                                      7
         - The Records Division of the Police Department and the Maternal Child Health
Division of the Department of Health made three deposits up to 5 days after the dales of
collections.

       - The Department of Public Works made 21 deposits on Fridays, which was 2 to
4 days after the dates of collections.

         - The Bureau of Internal Revenue made four deposits‘up to 2 days after the date of
collection.

         - The Instant Lottery office held collections f& periods of up to 17 days so that the
funds could be used to make payouts to instant lottery winners who came in to redeem their
winning tickets. An Instant Lottery official told us that holding the collections was necessary
because the $300 cash fund that was available at the start of each business day was not
sufficient to make payouts, which averaged about $500 but could exceed that amount. The
official further stated that the Instant Lottery office was trying to have the cash fund
increased to $1,000.

Ln a related matter, we noted that the Instant Lottery office issued packets of instant lottery
tickets to retailers in advance of receiving payments for the tickets. Specifically, during May
and June 1999, the Instant Lottery ofice distributed 850 packets of instant lottery tickets,
which were valued at $79,050, to retailers. However, during the same period, the Instant
Lottery office collected from the retailers only $35,800 for tickets distributed during those
months and during prior periods. As of August 10,1999, retailers owed the Instant Lottery
offrce $5 1,300 for instant lottery tickets that they had received.

We believe that Governmental departments and agencies should ensure that funds collected
during each workday are deposited on the date of collection, in accordance with
Section 310.4 of the Government Accounting Manual. We also believe that the Virgin
Islands Lottery should provide the Instant Lottery o&e with a cash fund that is sufficient
to meet its daily payout needs and should discontinue the practice of distributing instant
lottery tickets to retailers in advance of receiving payments for such tickets.

Collection Records

Section 310.5 of the Government Accounting Manual requires that collectors submit the
pertinent collection and deposit records to the Revenue Audit Section of the Department of
Finance on a daily basis. (These records, consisting of copies of the issued and voided
cashier receipts, Daily Summaries of Collections and Deposits,3 and Certificates of Deposits,
are used by the Revenue Audit Section to verify the accuracy of reported collections and
deposits and to prepare daily and monthly revenue reports.) However, we found that this
requirement was not always complied with. Specifically, the required records were not


‘The Daily Summaries of Collections and Deposits include manually prepared Daily Summaries and the entry
of collection and deposit information into the computerized system so that computer-generated Daily
Summaries can be printed at the Department of Finance.

                                                   8
submitted to the Department of Finance on a daily basis by the Records Division of the
Police Department; the East End Family Health Center, the Revenue Services Divisiop, and
the Community Health Clinic of the Department of Health; the Department of Agriculture;
and the Department of Planning and Natural Resources. As a result, current and accurate
information on the revenues of the Government was not recorded in the Government’s
Financial Management System and was not available to operating and policy-making
officials of the Government.

Unannounced Cash Counts

As part of our audit, we conducted unannounced cash iounts at the departments.and agencies
included in the scope of our review except at the Virgin Islands Lottery’s main office and
Instant Lottery office and the Department of Human Services. We were unable to conduct
cash counts at these three locations because the Lottery’s main office had not made any
collections as of the date and time of our unannounced visit, the Instant Lottery office did not
have cash on hand, and the Department of Human Services collected only money orders and
certified checks but not cash. The results of our cash counts are summarized in Table 2.

                          Table 2. Results of Unannounced Cash Counts
                                    for July and August 1999

                                                   Cash               Receipts          Change            Cash
                Agencv                            Counted              Issued            Fund         OveNUnder)

Police Dept. - Motor Vehicle Bureau              $3,750.19           53,561.l I          % 168.00          $2 I .08
Police Dept. - Records Division                      829.00              829.00                 0
Department of Agriculture                             46.43                13.00            40.00          (6.5;)
Department of Agriculture - Abattoir                  46.00               46.00                 0               d
Department of Labor                               5,135.65            5,135.56                  0             .09
V.I. Lottery - Ticket Sales                      24,280.OO           24,280.OO                  0               0
Department of Finance                           199,895.57          199,793.82             100.00           I .75
Department of Public Works                            21.00               21.00                 0               0
Dept. of Planning - Permits Division               1,234.56            1,134.56            100.00               0
Dept. of Planning - Enforcement                    1,281.75           1,180.40             100.00           1.35
Dept. of Licensing                                2,643.Ol            2,543.Ol             100.00               0
Dept. of Health - Maternal Health                    150.00              150.00                 0               0
Dept. of Health - East End Center                    472.11              347.80             50.00          74.3 I
Dept. of Health - Revenue Services                   649.00              574.00             75.00               0
Dept. of Health - Community Clinic                1,75 1.29           1,601.29            150.00                0
Roy L. Schneider Hospital                       298,152.07          297,900.27            250.00            1.80
Bureau of Internal Revenue                           687.34              647.34             40.00          _0

         Totals                                $541.024.97        $539.758.16         $1.173.00           1
                                                                                                          $93.8

V.I. Lottery - Prize Payments                     $6,027.00          $1,973.00        $8,000.00 **                0

*The 58,000 in the column “Change Fund” was the amount of start-up cash available for the payment of prizes. Cash on
hand and receipts for prizes paid totaled $8,000.




                                                         9
The collectors could not explain the reasons for the cash differences at the Motor Vehicle
Bureau of the Police Department ($21.08 overage) and the Department of Agriculture
($6.57 shortage). The collector at the Department of Labor said that a customer did not pick
up change of 9 cents. The collector at the Enforcement Division of the Department of
Planning and Natural Resources said that the extra $1.35 was found under the cash pan. The
collector at the Department of Finance said that the change fund has had an overage of $1.75
for a “long time.” The collector at the East End Family Health Center of the Department of
Health did not know how much start-up cash was in the cashdrawer at the start of the day
and could not explain the $74.3 1 overage. The collector at the Roy L. Schneider Hospital
could not explain the overage of $1.80. Although the, cash differences identified were very
minor amounts, we believe that a greater level of supervisory oversight may have reduced
the instances of cash overages or shortages. Additionally, we believe that the unreconciled
overages are indicative of internal control weaknesses that could result in more significant
errors or irregularities in the future.

Supervision

We found that the level of supervisory oversight over collectors and assistant collectors was
not adequate at all of the agencies included in our review as follows:

        _ At the Motor Vehicle Bureau of the Police Department, the Department of
Agriculture, and the Department of Labor, the supervisors did not review the collectors’
work.

        - At the Records Division of the Police Department, the collector was also the
supervisor of the Division. Therefore, no one reviewed the collector’s work before it was
submitted to the Department of Finance.

        - At the Instant Lottery offlce, the staff consisted of only two employees, one of
whom was in charge of office operations. However, collection records were not always
reviewed by a mid-level supervisor who had oversight of all office operations before the
records were submitted to the main Lottery offrce.

        - At the Maternal Child Health Clinic of the Department of Health, the collector’s
work had not been reviewed since August 1998, when the previous supervisor retired. The
collector told us that if she could not reconcile the collections and deposits, she would ask
a clerk to double-check her work.

      - At the East End Family Health Center of the Department of Health, the Center’s
accountant performed a cursory check rather than a full reconciliation of the Daily
Summaries and the Certificates of Deposit.

We believe that Governmental departments and agencies should ensure that the work of
collectors and assistant collectors is reviewed by supervisory personnel to make certain that
the collections and deposits are properly reconciled and that pertinent requirements of the


                                             10
Government Accounting Manual have been met before the collection documents are
submitted to the Department of Finance.                                  ..

Computer Deficiencies

The Department of Finance provided computerized cash registers (PC cash drawers) to the
collectors at some departments and agencies, including the Motor Vehicle Bureau of the
Police Department; the Bureau of Internal Revenue; and the Departments of Agriculture,
Labor, Finance, Public Works, and Licensing and Consumer Affairs. However, we found
that the computerized system did not always provide needed printed reports and occasionally
printed inaccurate copies of the Workstation Summaries and Daily Summaries of Collections
and Deposits. For example, the computerized system was not programmed to produce Daily
Summaries of Collections and Deposits to serve as records for the files for days on which
there were no collections. Also, the computerized system sometimes duplicated collection
amounts on the Workstation Summaries and the Daily Summaries. For example, at the
Department of Agriculture, a collection of $82.20 that was made on May 12,1999, was listed
on the computerized Daily Summaries for both May 12 and 13,1999. At the Department of
Licensing and Consumer Affairs, a collection of $7,732.5 1 that was made on June 30,1999,
was listed twice on that day’s Workstation Summary. This error occurred when the collector
tried to print a second copy of the Workstation Summary.

We believe that the Department of Finance should contact the collectors who have been
provided with computerized cash registers to identify deficiencies in the computerized
collection system and ensure that these deficiencies are corrected.

Recommendations

We recommend that the Governor of the Virgin Islands require Governmental departments
and agencies to ensure that:

        1. Employees who are assigned to make collections on behalf of the Government are
properly authorized by the Department of Finance, in accordance with Section 3 10.2 of the
Government Accounting Manual.

       2. Collectors and assistant collectors do not pre-sign blank receipt forms or give
unsigned receipts to individuals who make payments.

       3. An employee of the Department of Human Services is officially designated,
through the Department of Finance, as the collector for license fees for the day care,
preschool, and Headstart programs.

        4. Cashier operations are adequately supervised, monies collected are properly
documented and recorded using the appropriate manual or computerized procedures, and
daily collections and deposits are reconciled.



                                            11
        5. Funds in the possession of the collectors during the workday are properly
safeguarded and that collection personnel are provided with secure workareas which restrict
access by unauthorized personnel.

       6. Funds collected during each workday are deposited on the date ofcollection, using
night depositories when necessary.

         7. The Virgin Islands Lottery provides the Instant Lottery office with a cash fund that
is sufficient to meet its daily payout needs and discontinues the practice of distributing
instant lottery tickets to retailers in advance of receiving
                                                          - payments for such tickets.
        8. Adequate supervisory oversight is provided over collectors and assistant collectors
so that collections and deposits are properly reconciled and pertinent requirements of the
Government Accounting Manual are met before the collection documents are submitted to
the Department of Finance.

        9. The Department of Finance contacts the collectors who have been provided with
computerized cash registers (PC cash drawers) to identify and correct, as appropriate,
deficiencies in the computerized collection system.

Governor of the Virgin Islands Response and Offke of Inspector General
Reply
On September 15,1999, we provided a preliminary draft of this report to the Commissioner
of Finance, requesting an exit conference to discuss the report. However, despite several
followup inquiries, we were unable to schedule an exit conference with the Commissioner.
Therefore, the draft report was issued on October 7, 1999, without the Commissioner’s
comments on the findings and recommendations. A response to the draft report was
requested by November 30,1999, but a response from the Governor of the Virgin Islands or
the Commissioner of Finance had not been provided as of December 15, 1999. Therefore
the recommendations are unresolved (see Appendix 2).

Section 5(a) of the Inspector Genera1 Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the U.S. Congress.
In addition, the Office of Inspector General provides audit reports to the Congress.




                                              12
In view of the above, please provide a response to this report by February 4, 2000. The
response should be addressed to our Caribbean Office, Federal EMding - Room 207,
Charlotte Amalie, Virgin Islands 00802. The response should provide the information
requested in Appendix 2.

                                           Sincerely,



                                           Earl E. Devaney
                                           Inspectbr General




                                         13
                                                                                             APPENDIX 1

                   OFFICES AND COLLECTIONS INCLUDED
                            IN SCOPE OF AUDIT

             Deuartment or Agency*                                                    Collections Reviewed

Bureau of Internal Revenue                                                                $4 1,097,600.97

Department of Finance                                                                      39,853,774.16

Roy L. Schneider Community Hospital                                                          3,312,331.91

Virgin Islands Lottery:
        Ticket Sales Office                                                                  1,412,300.25
        Instant Lottery Office                                                                  45,117.52**
        Main Office                                                                             14,876.OO

Department of Labor                                                                            855,607.24

Virgin Islands Police Department:
        Motor Vehicle Bureau                                                                   477,968.08
        Records Division                                                                        26,245.OO

Department of Planning and Natural Resources:
       Permits and Enforcement Division                                                        390,858.68

Department of Licensing and Consumer Affairs                                                   343,685.09

Department of Health:
       Community Health Clinic                                                                  90,636.69
       Revenue Services Office                                                                  44,569.86
       East End Family Health Center                                                            16,452.05
       Maternal Child Health Center                                                             12,574.OO

Department of Agriculture:
       Abattoir                                                                                  5J77.30

Department of Public Works                                                                       2,191.OO

Department of Human Services                                                                     1.025.00

         Total Collections Reviewed                                                      $88.003,390.80

*All offices visited were on the island of St. Thomas.
**This amount was not included in Table 1 in the report because it contained a combination of collectionsfrom
instant ticket sales and payments of instant lottery prizes and was therefore not easily reconcilable to daily
deposits.




                                                     14
                                                                        APPENDIX 2


      STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            status                    Action Reauired

      1 through 9        Unresolved.        Provide a response to each
                                            recommendation indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, provide a plan identifjkrg
                                            actions to be taken, including target
                                            dates and titles of the offkials
                                            responsible for implementation. If
                                            nonconcurrence is indicated, provide
                                            specific reasons for the nonconcurrence.




                                       15
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO                                       ..
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html
                                               -


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N. W.                                   l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington. D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region
U.S. Department of the Interior                        (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington. Virginia 22203

                                     Pa+ Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion. Suite 306
.4gana. Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

FTSKommercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
